OIG Audit Report GR-90-06-005

Office of Community Oriented Policing Services Methamphetamine Initiative Grants to the California Department of Justice, Sacramento, California

Audit Report GR-90-06-005


March 2006
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of six grants awarded by the U.S. Department of Justice, Office of Community Oriented Policing Services (COPS), to the California Department of Justice Division of Law Enforcement (CA DOJ).  The six grants include three for the California Advanced Training Center (ATC) and three for the California Methamphetamine Strategy program (CALMS), of which one had no payment or drawdown activities as of March 31, 2005.  The purposes of the grants are to train officers to combat methamphetamine use and to safely address the hazards of clandestine laboratories.  In addition, these grants funded strategic and tactical support to law enforcement and promoted awareness of methamphetamines dangers.  As of March 31, 2005, the CA DOJ was awarded a total of $16,650,153 for the six grants we audited, and these grants were open as of the start of our fieldwork.1
We tested the CA DOJs compliance with essential grant conditions, including grant drawdowns, budget management and control, grant expenditures, and grant reporting.  We found that the grantee generally complied with grant requirements and most of the exceptions that we noted during our audit were immediately corrected.  However, we identified a $16,575 dollar-related finding relating to an incorrect budget calculation for one of the CALMS grants.2    Some of the other findings that we identified, but that CA DOJ immediately corrected included:

Grant expenditures totaling $72,000 were charged to a CALMS grant twice, in two different fiscal years, and prior to the budget categories being approved by the COPS Office.

	The CA DOJ did not calculate its indirect costs in accordance with the Federal Indirect Cost Negotiated Agreement and the budget methodology approved by COPS for two of the CALMS grants.  This resulted in overcharges totaling $11,696 and $4,526 respectively.

	The CA DOJ overpaid $7,316 to a vendor that provided contracted translation services.

Our report contains three recommendations to address the preceding issues, which are discussed in detail in the Findings and Recommendations section of the report.  Our audit objective, scope, and methodology appear in Appendix I of the report.

We discussed the results of our audit with CA DOJ officials.  In addition, we provided the grantee and the COPS Office with a draft of our audit report and have requested formal responses, which were appended to this report.
  



Footnotes

Excluded from our review were four closed grants totaling $57,600,000 for the CALMS program.  The first of these grants originated in October 1997 and the last grant was closed by May 2004.

	The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.